OIG Investigative Reports, Fifth Guilty Plea in $163,000 Theft from the Department of Education
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Friday, February 21, 2003
U.S. Department of Justice
Roscoe C. Howard, Jr.
United States Attorney for the
District of Columbia
Judiciary Center
555 Fourth St. N.W.
Washington, D.C.  20530
For Information Contact Public Affairs
Channing Phillips (202) 514-6933
Fifth Guilty Plea in $163,000 Theft from the Department of Education
Washington, D.C. - United States Attorney Roscoe C. Howard, Jr., John P. Higgins, Inspector General for Department of Education, and Van A. Harp, Assistant Director in Charge of the FBI's Washington Field Office, announced that Silvader Denise Estep, 49, of Fort Washington, Maryland, pleaded guilty today in U.S. District Court before the Honorable Thomas F. Hogan to the charge of conspiracy in connection with a scheme to steal $163,000 from the Department of Education ("Education"). Sentencing is scheduled for May 21, 2003, before U.S. District Judge Paul L. Friedman. Under the Federal Sentencing Guidelines, Estep could face between 30 and 37 months in prison.
According to the government's evidence, from 1996 through 1999, Estep, along with co- defendant Jean Williams Stancell, both of whom worked for the Department of Education, and others stole property and money in the amount of $163,000 from Education by charging government issued purchase cards (credit cards) for items and services from vendors which benefited themselves. Stancell, 53, also from Fort Washington, MD, previously pled guilty to conspiracy for  her role in the theft and is scheduled to be sentenced on April 3, 2003. Three vendors or their employees have also pled guilty for their respective roles in the theft, bringing the total to five  persons who have pled guilty to various charges as a result of this investigation.
During the conspiracy, Estep worked for the Quality Workplace Group ("QWG") at Education. QWG was the facilities management component of Education. Estep's job and the mission of QWG was to hire contractors to perform maintenance work at Education buildings and to purchase furniture and office supplies for Education employees. Education provided VISA credit cards to certain QWG employees in order to pay for these goods and services. Education relied upon the employees to use the credit cards for official government business only. Education developed the following procedures to prevent fraudulent use of credit cards: employees were required to obtain invoices from contractors and vendors when possible; maintain logs of charges; reconcile monthly statements; and certify that the charges were legitimate. Estep was assigned one of these credit cards. In April 1998, she became the Acting Team II Leader of QWG.
Estep approached various contractors and asked them to work at her house but to charge the government issued credit cards for work performed. To hide the theft from the government, Estep at times would create false invoices claiming that work was done for Education. Estep also purchased furniture with government-issued credit cards. The furniture was not for the benefit of Education, but rather was used by Estep or her friends and co-workers. Estep asked the furniture salesmen to create false invoices which deleted references to residential furniture but instead inserted office-type furniture descriptions as the items purchased.
Estep has since resigned her position from the Department of Education.
In announcing the guilty plea, United States Attorney Howard, Inspector General Higgins, and Assistant Director Harp commended the Federal Bureau of Investigation and Education's Office of Inspector General, specifically, Special Agents Lauren LeMay, George Blissman, Ross Campbell,  and supervisor Valerie Schwarzenbach. In addition, they praised Paralegal Specialist Jeanie Latimore-Brown, Auditor Sandra Henderson, and legal assistants Shavonne Jennings and April Peeler. Also commended were Assistant United States Attorneys Ann Rosenfield, Elizabeth Coombe, and Virginia Cheatham.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov